No. 19A_____
_______________________________________________________________________
In the

Supreme Court of the United States
OCTOBER TERM 2019
____________________
WINSTON-SALEM INDUSTRIES FOR THE BLIND
Applicant,
v.
PDS CONSULTANTS, INC.
Respondent.
________________
APPLICATION FOR AN EXTENSION OF TIME TO FILE A
PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
________________
Application Directed to the Honorable John G. Roberts, Jr.
Chief Justice of the United States and Circuit Justice for the Federal Circuit
_________________
Jessica C. Abrahams
Dana B. Pashkoff
Mark D. Taticchi
DRINKER BIDDLE & REATH LLP
1500 K Street, N.W.
Washington, DC 20005
(202) 230-5371
jessica.abrahams@dbr.com

Carter G. Phillips
Counsel of Record
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000
cphillips@sidley.com
Counsel for Applicant

PARTIES TO THE PROCEEDING
United States of America, and Applicant Winston-Salem Industries for the
Blind, were Defendants-Appellants in the court of appeals proceedings.
Respondent PDS Consultants, Inc. was Plaintiff-Appellee in the court of
appeals proceedings.

i

STATEMENT PURSUANT TO RULE 29.6
Pursuant to Supreme Court Rule 29.6, applicant Winston-Salem Industries
for the Blind, states that is has no parent corporation, and no publicly held
corporation has 10 percent or greater ownership in Winston-Salem Industries for
the Blind.

ii

APPLICATION FOR EXTENSION OF TIME
To the Honorable John G. Roberts, Chief Justice of the United States and
Circuit Justice for the Federal Circuit:
Pursuant to Rule 13.5 of the Rules of this Court and 28 U.S.C. 2101(c),
Applicant Winston-Salem Industries for the Blind (“IFB” or “Applicant”)
respectfully requests a 32-day extension of time, to and including September 9,
2019, within which to file a petition for a writ of certiorari to review the judgment of
the United States Court of Appeals for the Federal Circuit.
BACKGROUND
1.

The Federal Circuit issued its decision on October 17, 2018. PDS

Consultants, Inc. v. United States & Winston-Salem Industries for the Blind, 907
F.3d 1345 (Fed. Cir. 2018) (Exhibit A). IFB sought rehearing, which was denied on
May 10, 2019 (Exhibit B). Unless extended, the time to file a petition for a writ of
certiorari will expire on August 8, 2019. This application is being filed more than
ten days before the petition is currently due. See Sup. Ct. R. 13.5. The jurisdiction
of this Court would be invoked under 28 U.S.C. 1254(1).
2.

The Federal Circuit’s decision in this case upended decades of settled

understanding regarding how federal agencies—and, in particular, the Department
of Veterans Affairs (“VA”)—prioritize and select the source from which they
purchase goods and services. It did so based on a misinterpretation of the Veterans
Benefits, Health Care, and Information Technology Act of 2006, 38 U.S.C. 8127-

8128 (the “2006 VBA”), and a perceived conflict between that statute and the JavitsWagner-O’Day Act, 41 U.S.C. 8501-8506 (“JWOD”).
3.

JWOD created the AbilityOne Commission, which is a federal agency

charged with compiling a “Procurement List” of non-profit entities that employ the
blind and severely disabled in the creation of goods and services.1 JWOD also
requires all federal agencies to obtain goods or services exclusively from the
designated nonprofit agencies on that list. See 41 U.S.C. 8405. The list embodies a
mandatory, non-competitive acquisition process that the agency must complete
before attempting to obtain goods and services through a competitive process, see 48
C.F.R. 8.002(a)(1)(iv), 8.004. The relevant provision of JWOD states:
An entity of the Federal Government intending to procure a product or
service on the procurement list referred to in section 8503 of this title
[i.e., the List] shall procure the product or service from a qualified
nonprofit agency for the blind or a qualified nonprofit agency for other
severely disabled in accordance with regulations of [AbilityOne] and at
the price [AbilityOne] establishes if the product or service is available
within the period required by the entity.
41 U.S.C. 8504(a) (emphasis added).
4.

The 2006 VBA, by contrast, tells the VA that, once it determines that it

must resort to competitive processes, it should choose a qualified veteran-owned
business over any other (i.e., non-veteran-owned) small business competing for the
contract at issue. The relevant provision of the 2006 VBA states:
Except as provided in subsections (b) and (c), for purposes of meeting the
goals under subsection (a), and in accordance with this section, a
contracting officer of the [VA] shall award contracts on the basis of
1 To qualify as an AbilityOne non-profit agency, an entity must (among other requirements)
ensure that at least 75 percent of its direct labor workforce is comprised of individuals who are blind
or severely disabled. 41 U.S.C. 8501(6).

2

competition restricted to small business concerns owned and controlled
by veterans if the contracting officer has a reasonable expectation that
two or more small business concerns owned and controlled by veterans
will submit offers and that the award can be made at a fair and
reasonable price that offers best value to the United States.
38 U.S.C. 8127(d) (emphasis added).
5.

In its decision, the Federal Circuit concluded that these two statutes

are in irreconcilable conflict because both use mandatory language and (in the
Federal Circuit’s view) speak to the same subject matter: source selection for
federal agencies’ acquisition of goods and services. 907 F.3d at 1357-58. In light of
that perceived conflict, the Federal Circuit held that the later-enacted (and
supposedly more specific) of the statutes—the 2006 VBA—controls, id., at 1358-59,
which means that the VA must henceforth obtain all of its goods and services from
veteran-owned small businesses, even if the good or service in question is also
included on the Procurement List as a mandatory source for government agencies.
6.

That decision is clearly wrong. In brief, the Federal Circuit misread

the plain text of JWOD and the 2006 VBA and ignored the mandatory decision-tree
that all federal agencies must follow when seeking to purchase goods or services:
a.

When assessing how to fill a need for goods or services, an

agency must always first determine whether it can fulfill its need through a
so-called “mandatory source.” See 41 U.S.C. 3301(a), 3304(a)(5); see also 48
C.F.R. 8.002, 8.004.
b.

If it can, its analysis is at an end and it acquires the goods or

services from that source. If not, the agency must proceed to consider
“competitive sources.” 41 U.S.C. 3301(a); 48 C.F.R. 8.004.
3

c.

Once inside the world of “competitive” procurements, the agency

must determine whether the procurement should be conducted pursuant to
any form of “restricted” competition (e.g., a competition limited to small
business concerns) or, instead, pursuant to “full and open competition” (i.e., a
competition open to all potential contractors). See 41 U.S.C. 152(4), 3303(b).
7.

The Federal Circuit’s fundamental error was not recognizing that the

2006 VBA was a directive to the VA on how to answer the latter question—i.e., how
to conduct its competitive process.
8.

Because the two statutes’ mandates do not overlap, the Federal Circuit

erred in requiring the VA to jettison JWOD’s directive to purchase goods and
services included on the Procurement List from the relevant AbilityOne qualified
nonprofit agency.
9.

IFB intends to petition this Court to review the Federal Circuit’s

erroneous decision. The reason the Court should grant that petition is not merely
because the decision below was profoundly wrong. The holding fundamentally
reorders the federal procurement system that has existed for decades. And the effect
will be to devastate the lives and livelihoods of hundreds of blind employees whose
jobs with IFB will be terminated when the VA ceases purchasing eyeglasses and
vision-related services from IFB (as it has already begun to do). The employees so
terminated will incur serious and in many instances permanent harm, because the
blind as a class are well known to be underemployed in the workforce—which, of
course, is precisely why Congress enacted JWOD in the first place. Moreover, the

4

impact will extend far the beyond the blind; it also will cause many severely
disabled employees to be fired by other firms on the AbilityOne list that no longer
will have priority in the acquisition process.
REASONS JUSTIFYING AN EXTENSION OF TIME
10.

Applicant respectfully requests an extension of time in order to

(i) accommodate undersigned counsel’s other professional obligations during the
time allotted to prepare a petition for a writ of certiorari; and (ii) enable Applicant
to confer with other stakeholders in this litigation, including in particular the
Solicitor General of the United States, regarding their position on seeking this
Court’s review.
a.

During the interval allotted for preparing a petition for a writ of

certiorari in this matter, undersigned counsel has been required to devote
time to numerous matters, including: CITGO Asphalt Ref. Co. v. Frescati
Shipping Co., No. 18-565 (opening brief filed in this Court July 9, 2019);
Faircloth v. United States (petition to this Court currently due August 4,
2019); Norfolk S. Ry. v. Sumner, No. 18-1367 (reply brief in support of a
petition for certiorari filed in this Court due August 19, 2019); Dexcom, Inc. v.
AgaMatrix, Inc. , No. 18-2353 (Fed. Cir.) (reply brief filed on July 15, 2019)
and Epic System Corp. v. Tata Consultancy Services Limited, No. 19-1613
(7th Cir.) (opening brief filed July 10, 2019). In the absence of an extension,
those obligations have and will significantly impede counsel’s ability to

5

prepare a well-researched and comprehensive petition that will assist the
Court in evaluating the Federal Circuit’s decision.
b.

In addition, Applicant has also initiated discussions with

various stakeholders, including potential amici curiae and the Solicitor
General of the United States, regarding their views on the merits of the
Federal Circuit’s decision and the appropriateness of seeking this Court’s
review of that decision. Those discussions are ongoing, and the requested
extension of time will facilitate their orderly conclusion and afford Applicant
adequate time to complete its petition once they conclude.
CONCLUSION
For the foregoing reasons, the Court should grant Winston-Salem Industries
for the Blind a 32-day extension of time, to and including Monday, September 9,
2019, within which to petition for a writ of certiorari.

6

Dated: July 19, 2019

Respectfully submitted,
/s/ Carter G. Phillips
Carter G. Phillips
SIDLEY AUSTIN LLP
1501 K Street, N.W.
(202) 736-8000
cphillips@sidley.com
Jessica C. Abrahams
Dana B. Pashkoff
Mark D. Taticchi
DRINKER BIDDLE & REATH LLP
1500 K Street, N.W.
Washington, D.C. 20005
(202) 230-5361
jessica.abrahams@dbr.com
Counsel for Applicants

7

Exhibit A

PDS Consultants, Inc. v. United States, 907 F.3d 1345 (2018)

907 F.3d 1345
United States Court of Appeals, Federal Circuit.
PDS CONSULTANTS, INC., Plaintiff-Appellee
v.
UNITED STATES, Winston-Salem Industries
for the Blind, Defendants-Appellants
2017-2379, 2017-2512
|
Decided: October 17, 2018
Synopsis
Background: Service-disabled veteran-owned small
business (SDVOSB) brought bid protest action against United
States, alleging that Department of Veteran's Affairs (VA) was
required under the Veterans Benefits Act (VBA) to perform
“rule of two” analysis to determine whether two or more
veteran-owned small-businesses could perform work at a fair
price prior to making new contracting determinations for
all procurements, including for products and services from
designated non-profits that employed blind and otherwise
severely disabled people on list required by Javits-WagnerO'Day Act, and which were added prior to VBA's passage.
After SDVOSB was granted judgment on administrative
record, 132 Fed.Cl. 117, incumbent contractor, an advocacy
organization for the blind and disabled, intervened and moved
for stay pending appeal. The Court of Federal Claims, Nancy
B. Firestone, Senior District Judge, 133 Fed.Cl. 810, granted
incumbent contractor's motion. Incumbent contractor and
government appealed.

Holdings: The Court of Appeals, O’Malley, Circuit Judge,
held that:
Court of Federal Claims had subject matter jurisdiction, under
the Tucker Act, over the bid protest, and
pursuant to the VAB, VA was required to give priority
to SDVOSB in procuring eyewear products and services,
even though such products and services were on AbilityOne
procurement list and ordinarily would result in contract being
awarded to nonprofit qualified under the JWOD.
Affirmed.

*1347 Appeals from the United States Court of Federal
Claims in No. 1:16-cv-01063-NBF, Senior Judge Nancy B.
Firestone.
Attorneys and Law Firms
David S. Gallacher, Sheppard Mullin Richter & Hampton
LLP, Washington, DC, argued for plaintiff-appellee. Also
represented by Emily Susan Theriault.
Corinne Anne Niosi, Commercial Litigation Branch, Civil
Division, United States Department of Justice, Washington,
DC, argued for defendant-appellant United States. Also
represented by Robert Edward Kirschman, Jr., Douglas K.
Mickle, Chad A. Readler.
Joanne L. Zimolzak, LeClairRyan, Washington, DC, argued
for defendant-appellant Winston-Salem Industries For The
Blind. Also represented by James K. Kearney, Gary H. Nunes,
Joshua L. Rodman, Womble Bond Dickinson (US) LLP,
Tysons Corner, VA; Jessica C. Abrahams, Drinker Biddle &
Reath LLP, Washington, DC.
Tracye Winfrey Howard, Wiley Rein LLP, Washington, DC,
for amicus curiae National Industries For The Blind. Also
represented by Stephen Joseph Obermeier.
Thomas Saunders, Wilmer Cutler Pickering Hale and Dorr
LLP, Washington, DC, for amici curiae Kingdomware
Technologies, Inc., National Veteran Small Business
Coalition, American Legion. Also represented by Edward
Henderson Williams, II.
Craig Holman, Arnold & Porter Kaye Scholer LLP,
Washington, DC, for amicus curiae SourceAmerica. Also
represented by Nathaniel Edward Castellano.
David R. Johnson, Vinson & Elkins LLP, Washington, DC,
for amicus curiae Goodwill Industries International, Inc.
Dana B. Pashkoff, Drinker Biddle & Reath LLP, Washington,
DC, for amicus curiae National Association for the
Employment of People Who Are Blind.
Raechel Keay Kummer, Morgan, Lewis & Bockius LLP,
Washington, DC, for amici curiae Melwood Horticultural
Training Center, Inc., Melwood Veterans Services, LLC,
Linden Resources, Inc.
Before Prost, Chief Judge, O’Malley and Stoll, Circuit
Judges.

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

1

PDS Consultants, Inc. v. United States, 907 F.3d 1345 (2018)

Opinion
O’Malley, Circuit Judge.
*1348 This case concerns the relationship between two
statutory regimes designed to benefit two historically
disadvantaged groups: veterans and disabled persons. The
United States and Winston-Salem Industries for the Blind
(“Industries for the Blind”) (together, “Appellants”) appeal
from a decision of the U.S. Court of Federal Claims (“Claims
Court”) holding that section 502 of the Veterans Benefits,
Health Care, and Information Technology Act of 2006, Pub.
L. No. 109-461, 120 Stat. 3403, 3431–35 (2006) (“VBA”),
requires the Department of Veterans Affairs (“VA”) to
consider awarding contracts for prescription eyewear based
on competition restricted to veteran-owned small business—
i.e., to undertake a “Rule of Two” analysis—before procuring
such eyewear from any other source, including a nonprofit
agency for the blind or significantly disabled, designated
as such under the Javits-Wagner-O’Day Act (“JWOD”), 41
U.S.C. § 8504. See PDS Consultants, Inc. v. United States,
132 Fed.Cl. 117 (2017). For the reasons that follow, we affirm.

through the use of competitive procedures” when procuring
goods or services. 41 U.S.C. § 3301(a). An agency uses
“competitive procedures” when it permits any responsible
source to compete for a procurement; it also uses “competitive
procedures” when it appropriately restricts competition to
“small business concerns.” Id. § 152.
The Competition in Contracting Act expressly exempts
agencies from having to use “competitive procedures”
for procurements where (1) procurement procedures are
“otherwise expressly authorized by statute,” id. § 3301(a);
or (2) “a statute expressly authorizes or requires that the
procurement be made through another executive agency or
from a specified source,” id. § 3304(a)(5). The parties do not
dispute that the JWOD is a statute that expressly requires
that certain procurements be made “from a specified source.”
They dispute, however, whether and to what extent the
VBA contains a separate exception from the Competition in
Contracting Act’s “competitive procedures” requirement, one
that applies before resort to the requirements of the JWOD.

2. The Javits-Wagner-O’Day Act
I. BACKGROUND
A. Overview of the Federal Procurement Process
A bevy of statutes and regulations govern the federal
procurement process. As explained below, these authorities
impose a number of restrictions on executive branch agencies
seeking to procure goods and services. At the same time, they
permit—or, sometimes, mandate—that preferential treatment
be given to certain contractors, including those that are
owned by or employ veterans or employ blind or otherwise
significantly disabled individuals. This case concerns the
relative priority of those mandates for VA procurements.

1. The Competition in Contracting Act
In 1984, Congress enacted the modern statutory framework
for federal procurement, the Competition in Contracting
Act of 1984, Pub. L. No. 98-369, div. B, tit. VII, 98
Stat. 494, 1175, which is codified, as amended, in various
sections of titles 10, 31, and 41 of the United States Code.
The Competition in Contracting Act generally requires that
all executive agencies “obtain full and open competition

The JWOD was enacted in 1938 to provide employment
opportunities for the blind, and was amended in 1971 to
provide such opportunities for “other severely disabled”
individuals. To effectuate these goals, the JWOD established
the Committee *1349 for Purchase from People Who
Are Blind or Severely Disabled (“AbilityOne”), a fifteenmember body appointed by the President that includes one
representative from the VA. 41 U.S.C. § 8502.
One of AbilityOne’s primary duties is to create and maintain a
procurement list (“List”) that identifies products and services
produced by nonprofit entities that are operated in the interest
of, and employ, individuals who are blind or significantly
disabled. Id. § 8503(a). The JWOD generally requires that
federal agencies, which on its face would include but not be
limited to the VA, purchase products and services on the List
from designated nonprofits. Specifically, the JWOD provides
that:

An entity of the Federal Government
intending to procure a product or
service on the procurement list
referred to in section 8503 of this
title [i.e., the List] shall procure the

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

2

PDS Consultants, Inc. v. United States, 907 F.3d 1345 (2018)

product or service from a qualified
nonprofit agency for the blind or a
qualified nonprofit agency for other
severely disabled in accordance with
regulations of [AbilityOne] and at the
price [AbilityOne] establishes if the
product or service is available within
the period required by the entity.

Id. § 8504(a) (emphasis added). Regulations promulgated
under the JWOD mandate that AbilityOne, in deciding
what items to place on the List, consider, among other
things, the additional service or commodity’s potential to
generate employment, the nonprofit agency’s qualifications
and capability to meet Government standards and schedules,
and the impact on private contractors. 41 C.F.R. § 51–2.4.
AbilityOne can make changes to the List by posting a notice
in the Federal Register and following the notice and comment
procedures set forth in the Administrative Procedure Act. 41
U.S.C. § 8503(a)(2).

3. The Small Business Act and Amendments Thereto
The Competition in Contracting Act permits agencies to
restrict competition for some federal contracts. For example,
the Small Business Act (“SBA”) “requires many federal
agencies, including the [VA], to set aside contracts to
be awarded to small businesses,” and specifically requires
that each agency set “ ‘an annual goal that presents,
for that agency, the maximum practicable opportunity’ for
contracting with small businesses, including those ‘small
business concerns owned and controlled by service-disabled
veterans.’ ” Kingdomware Techs., Inc. v. United States, –––
U.S. ––––, 136 S.Ct. 1969, 1973, 195 L.Ed.2d 334 (2016)
(quoting 15 U.S.C. § 644(g)(1)(B) ). Federal regulations,
such as 48 C.F.R. § 19.502-2(b), moreover, “set forth
procedures for most agencies to ‘set aside’ contracts for small
businesses.” Id.
Congress, through the SBA, established a goal for all agencies
to obtain 23% of the value of contracts from “small business
concerns.” 15 U.S.C. § 644(g)(1)(A) (2012). Congress
then expanded small-business opportunities for veterans
by passing section 502 of the Veterans Entrepreneurship
and Small Business Development Act of 1999, Pub. L.
No. 106-50, 113 Stat. 233, which amended the SBA and
established a government-wide contracting goal for agencies

to obtain at least 3% of the value of contracts from servicedisabled veteran-owned small businesses. Id.
Congress further amended the SBA by passing the Veterans
Benefits Act of 2003, Pub. L. No. 108-183, 117 Stat. 2651.
Section 308 of the 2003 Act, as codified, provides that
contracting officers “may award contracts on the basis of
competition restricted to small business concerns owned
and controlled by service-disabled veterans,” provided “the
contracting officer has a reasonable expectation that not
less than *1350 2 small business concerns owned and
controlled by service-disabled veterans will submit offers
and that the award can be made at a fair market price.”
15 U.S.C. § 657f(b). It also provides, however, that such a
procurement may not be made from a source on this basis “if
the procurement would otherwise be made from a different
source under section 4124 or 4125 of title 18 or chapter 85 of
title 41,” the latter including the JWOD. Id. § 657f(c). 1
1

Sections 4124 and 4125 govern federal procurements
of prison-made products and prisoner-conducted public
services, respectively.

4. The VBA and the VA’s Regulations and Guidance
Congress enacted the VBA in 2006, seeking to remedy
federal agencies’ failures to meet these contracting goals. 2
In section 502 of the VBA, Congress required the Secretary
of Veterans Affairs to establish specific annual goals for the
VA’s own contract awards to veteran-owned small business
and to service-disabled veteran-owned small businesses. See
38 U.S.C. § 8127(a). Congress also created a preference
for awarding contracts restricted to veteran-owned small
business, known as the “Rule of Two,” which provides:

(d)
USE
OF
RESTRICTED
COMPETITION.—Except
as
provided in subsections (b) and (c), for
purposes of meeting the goals under
subsection (a), and in accordance
with this section, a contracting
officer of the [VA] shall award
contracts on the basis of competition
restricted to small business concerns
owned and controlled by veterans
if the contracting officer has a
reasonable expectation that two or

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

3

PDS Consultants, Inc. v. United States, 907 F.3d 1345 (2018)

more small business concerns owned
and controlled by veterans will submit
offers and that the award can be made
at a fair and reasonable price that offers
best value to the United States.

Id. § 8127(d). Subsections (b) and (c) give contracting
officers discretion to award contracts below certain dollar
thresholds to veteran-owned small businesses without using
competitive procedures (very small contracts) or on a solesource basis (slightly larger contracts). Id. §§ 8127(b) & (c).
Unlike the 2003 Act, the VBA contains no express exception
for procurements which would “otherwise be made from a
different source under section 4124 or 4125 of title 18 or
chapter 85 of title 41.”
2

The VBA is codified, in relevant part, at 38 U.S.C. §§
8127–8128 (2016).

In response to the VBA, the VA established the “Veterans First
Contracting Program” on June 20, 2007. Under the program,
contracting officers were directed to give service-disabled
veteran-owned small businesses and veteran-owned small
businesses first and second priority status when awarding
contracts for VA procurements by undertaking the Rule of
Two analysis set forth in § 8127(d). After a period for notice
and comment, the VA published its final rules implementing
this program with an effective date of January 7, 2010. See
VA Acquisition Regulation: Supporting Veteran-Owned and
Service-Disabled Veteran-Owned Small Businesses, 74 Fed.
Reg. 64,619 (Dec. 8, 2009). Notably, though the regulations
do not say so, in response to comments regarding the
interaction between the new program and the AbilityOne
program, the VA indicated that the rule would “not alter
AbilityOne’s status in the ordering preference for current
or future items on the AbilityOne procurement list.” Id. at
64,622.

5. The FAR and VAAR
The Federal Acquisition Regulation (“FAR”) is a set of
uniform policies and procedures for government acquisition
of supplies and services, codified at *1351 48 C.F.R. Part
19, that implements, among other statutes, the Competition
in Contracting Act, the JWOD, and the SBA. Prior to the
promulgation of FAR, the General Services Administration
issued regulations that provided guidance to agencies as to

how they should prioritize the myriad policies that affect
government procurement. See Procurement Sources and
Programs; Priorities for Use of Supply Sources, 44 Fed. Reg.
47,934, 47,935 (Aug. 16, 1979). In Part 8, FAR adopted
a prioritization schedule providing that, subject to certain
exceptions, “agencies shall satisfy requirements for supplies
and services from or through the mandatory Government
sources and publications” according to a “descending order
of priority.” 48 C.F.R. § 8.002(a) (2002). This regulation
explains that procurement of “[s]upplies which are on the
[AbilityOne List]” takes priority over the procurement of
supplies listed in Federal Supply Schedules or government
acquisition contracts. Id.; id. § 8.004; see generally Federal
Acquisition Regulation; Prioritizing Sources of Supplies and
Services for Use by the Government, 77 Fed. Reg. 54,872
(Sept. 6, 2012) (explaining the reorganization of FAR).
The VA’s Acquisition Regulation (“VAAR”) is a subset of
the FAR that governs, among other things, VA acquisition
procedures. One such VAAR, 48 C.F.R. § 808.002, contains
a priority order for supplies. The 2009 regulations referenced
above are part of the VAAR.

6. The 2010 Letter and Angelica Textile
On April 28, 2010, the VA issued a letter setting forth
guidelines to its contracting staff about the Veterans First
Program and addressed its interaction with the AbilityOne
program. The stated purpose of the letter was to “set forth new
procedures for gaining approval to request new requirements
be placed on the AbilityOne Procurement List,” and it
directed contracting officers to take a series of steps to
explore whether veteran-owned small businesses and servicedisabled veteran-owned small businesses could provide the
needed services before proposing a requirement for the
List. J.A. 969–71. Among the new steps, a contracting
officer must (1) perform market research in accordance with
Part 10 of the FAR and Part 810 of the VAAR, and (2)
prepare a determination and findings which document the
requirement, the results of the market research performed, and
the contracting officer’s findings. The letter also stated that
all contracting officers must “adhere to the authorities of [the
VBA] prior to placing new requirements on the AbilityOne
Procurement List,” but it distinguished between items that
were on the List as of January 7, 2010 and those that were not:

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

4

PDS Consultants, Inc. v. United States, 907 F.3d 1345 (2018)

[A]ll items currently on the AbilityOne
Procurement List as of January 7,
2010, will continue to take priority
over the contracting preferences
mandated by [the VBA]. However, all
new requirements will be subject to
the contracting preferences mandated
by [the VBA] prior to being
considered for placement with the
AbilityOne Program. ... To ensure
appropriate business opportunities are
properly afforded to [service-disabled
veteran-owned small businesses] and
[veteran-owned small businesses], all
[contracting officers] must adhere
to the authorities and requirements
of [the VBA] (38 U.S.C. [§§]
8127–8128) prior to placing new
requirements on the AbilityOne
Procurement List.

J.A. 1338 (emphases added). Thus, the letter indicated that
items that had been added to the List prior to January 2010
would be grandfathered in and continue to receive priority.
About six months after the VA published its 2010 letter, the
Claims Court issued its decision in Angelica Textile Services,
Inc. v. United States, 95 Fed.Cl. 208 (2010), a *1352 bidprotest case concerning the relationship between the VBA
and the JWOD. The Claims Court ruled that a contracting
officer “intentionally sidestepped required procedure” when
she failed to follow the steps outlined in the 2010 letter for
adding new services to the List. Angelica Textile, 95 Fed.Cl.
at 221. The court required the VA and its contracting officers
to follow the procedures set forth in the 2010 letter in followon procurements. Id. at 223. The court did not address items
on the list prior to January 2010.
Following the Claims Court’s Angelica Textile decision,
AbilityOne “ended cooperation and collaboration between
the AbilityOne Program staff and VA contracting officers
regarding [List] additions.” PDS Consultants, 132 Fed.Cl. at
122. It then began to add items to the List unilaterally, taking
the position that, because the VBA only applied to the VA,
and not AbilityOne, it was not required to perform a Rule of
Two analysis before adding items to the List. Id.

7. Kingdomware
In 2016, the Supreme Court decided Kingdomware, in which
it held that, “[e]xcept when the [VA] uses the noncompetitive
and sole-source contracting procedures in subsections (b) and
(c), § 8127(d) requires the [VA] to use the Rule of Two before
awarding a contract to another supplier.” 136 S.Ct. at 1977.
Kingdomware did not directly address the interaction between
§ 8127 and the JWOD, however. Its focus, instead, was on
whether the VA had the discretion under § 8127(d) to place
orders under a preexisting Federal Supply Schedule before
resorting to the Rule of Two.
In response to the Supreme Court’s decision, the VA issued a
new policy memorandum, dated July 25, 2016, again seeking
to reconcile the requirements of the VBA and the JWOD.
The memorandum stated that the VA has a “continuing
requirement to comply with all statutory mandates,” including
an obligation to purchase items on the List. J.A. 1301. The
memorandum also included a decision tree, which explained
that, if there is a mandatory source, such as an item on the
List, then the Rule of Two “does not apply.” J.A. 1336.
Nevertheless, the memorandum explained that the VA will
continue to require contracting officers to “conduct market
research” and “apply the VA Rule of Two” as required under
the VBA before the officer can propose an addition to the List.
J.A. 1313.
Then, on March 1, 2017, the VA sent a memorandum to the
heads of contracting activities proposing to amend VAAR §
808.002 to “further define use of the ... Rule of Two when
considering procuring supplies or services on the AbilityOne
Procurement List” and to require procurement officials to
apply the Rule of Two before procuring an item on the List if
that item was added to the List on or after January 7, 2010—
the date on which the VA’s revised regulations implementing
the VBA became effective—if such an analysis was not
performed before the item was added. J.A. 1549, 1551. 3
3

48 C.F.R. § 808.002 does not yet reflect the changes
proposed by the VA in this memorandum.

With this background in mind, we next review the procedural
history before determining which statute—the VBA or
JWOD—controls when VA procurements are made.

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

5

PDS Consultants, Inc. v. United States, 907 F.3d 1345 (2018)

B. Procedural History
1. The VISNs and Associated Contracts
The items and services at issue in this case are eyewear and
eyewear prescription *1353 services that the VA provides
through two of its regional Veterans Integrated Service
Networks (“VISNs”) and associated facilities: VISNs 2 and
7. 4 Eyewear products and services for VISNs 2 and 7
were added to the List before January 7, 2010—the date on
which the revised regulations implementing the VBA became
effective—while those for VISNs 6 and 8 were added to the
List after January 7, 2010. 5
4

5

VISNs 6 and 8 were also initially at issue, but the
parties agreed at oral argument that they were no longer
relevant. Oral Arg. at 9:16–9:37, 16:47–18:09, available
at http://oralarguments.cafc.uscourts.gov/default.aspx?
fl=2017-2379.mp3.
The Industries for the Blind initially received contracts
to provide products and services under VISN 7 in
2002 and under VISN 2 in 2005, and has continuously
contracted for these VISNs since these initial contracts.
The Industries for the Blind’s VISN 2 contract was
extended for five months on August 30, 2016, and
then again under a sole-source contract that expired on
September 30, 2017. Its VISN 7 contract was extended
on July 15, 2016, and is set to expire on July 14, 2021.
PDS Consultants, 132 Fed.Cl. at 124.

Prior to the passage of the VBA, AbilityOne, working
in coordination with the VA, added eyewear and eyewear
prescription services provided by the Industries for the
Blind to the List for VISNs 2 and 7. It added eyewear
prescription services for VISN 7 in 2002 and added eyewear
for VISN 2 in 2005. Once the products and services for these
VISNs were added to the List, the VA entered into contracts
with the Industries for the Blind “to produce and provide
prescription eyeglasses and associated services to eligible
veteran beneficiaries serviced by VA Medical Centers and
all affiliated out-patient clinics,” specifying that “eyeglasses
will be made to the individual veteran’s prescription.” PDS
Consultants, 132 Fed.Cl. at 121.
After the VA published its 2010 letter, coordination
between VA contracting officers and AbilityOne effectively
ended. Between 2013 and 2015, AbilityOne, over negative
comments from certain service-disabled veteran-owned small

businesses, added prescription eyewear requirements for
portions of VISN 8 to the List, leading to a new contract with
the Industries for the Blind. Id.
In February 2016, AbilityOne published a notice in the
Federal Register proposing the addition of eyewear for
all of the VA’s requirements in VISN 6 to the List. See
Procurement List, Proposed Additions and Deletion, 81 Fed.
Reg. 7,510, 2016 WL 538665 (Feb. 12, 2016). Shortly after
the issuance of Kingdomware, PDS Consultants, Inc. (“PDS
Consultants”), which alleges that it can provide eyewear for
VISN 6, wrote a letter to AbilityOne “stating that many
of the eyewear products and services that AbilityOne had
proposed adding to the List ‘are the same or similar to the
types of eyeglasses many veteran-owned and service-disabled
veteran-owned businesses currently provide’ to the VA.” PDS
Consultants, 132 Fed.Cl. at 123. PDS Consultants “asserted
that adding VISN 6 to the List would cause the VA to violate
§ 8127 of the VBA, because Kingdomware found that the
Rule of Two was mandatory and Congress intended it to
cover ‘all VA procurements, including items already on the
AbilityOne Procurement List.’ ” Id. (emphasis omitted). On
July 19, 2016, PDS Consultants wrote AbilityOne “another
letter encouraging it to ‘work with the VA to ensure that the
[VA] performs the necessary market research to determine
whether the Rule of Two can be satisfied for VISN 6’ before
adding that VISN to the List.” Id.
On August 1, 2016, AbilityOne voted to add eyewear for
VISN 6 to the List. In the notice published in the Federal
Register, AbilityOne addressed PDS Consultants’ comments,
stating that, although it appreciated *1354 that it may
be possible to purchase eyewear from veteran-owned small
businesses:

[T]he Commission’s mission and
duty is to provide employment
opportunities for people who are
blind or have significant disabilities,
many of whom are veterans ....
Adding the proposed products to the
Commission’s Procurement List will
provide employment opportunities
to a portion of the U.S.
population that has a historically
high rate of unemployment or
underemployment, and is consistent

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

6

PDS Consultants, Inc. v. United States, 907 F.3d 1345 (2018)

with the Commission’s authority
established by 41 U.S.C. Chapter 85.

Additions to and Deletions from the Procurement List, 81 Fed.
Reg. 51,863, 51,864–65, 2016 WL 4138446 (Aug. 5, 2016)
(footnote omitted).

The United States and the Industries for the Blind timely
appealed. We have jurisdiction under 28 U.S.C. § 1295(a)(3).

II. DISCUSSION
A. Standard of Review

2. The Claims Court Proceedings
PDS Consultants initiated this bid protest in the Claims Court
on August 25, 2016, alleging that it is a service-disabled
veteran-owned small business “engaged in the business of
providing vision related products” and seeking declaratory
and injunctive relief. Specifically, it sought an injunction
requiring the VA to perform the Rule of Two analysis for
VISNs 2, 6, 7, and 8, and a separate injunction requiring
AbilityOne to remove VISNs 6 and 8 from the List.
The Claims Court, after receiving briefing and holding a
hearing, ruled that the VA is required to perform a Rule
of Two analysis for all procurements that post-date 2006,
when the VBA was passed, and not just for those items
added to the List after January 7, 2010, when the regulations
implementing the VBA became effective. PDS Consultants,
132 Fed.Cl. at 120. The court first determined that it had
jurisdiction over PDS Consultants’ complaint, disagreeing
with the government’s position that PDS Consultants was
required to challenge additions to the List in federal district
court under the Administrative Procedure Act. Id. at 126.
Turning to the merits, the Claims Court reasoned that, even
though the VBA and the JWOD are not necessarily in conflict
in all instances, (1) the VA is required to follow one of
the two statutes first when a product or service appears on
the List, (2) the Supreme Court in Kingdomware held that
§ 8127(d) obligates the VA to use the Rule of Two “in
all contracting before using competitive procedures,” and
(3) the VBA is “more specific” than the JWOD in that it
applies only to the VA for all of its procurements while the
JWOD addresses agency procurements generally. Id. at 127–
28 (quoting Kingdomware, 136 S.Ct. at 1977). The court
concluded that the VA has a legal obligation under the VBA
to perform a Rule of Two analysis when it seeks to procure
eyewear for VISNs 2 and 7 that have not gone through such
an analysis. Id. at 128. The Claims Court then enjoined the
VA from entering into future contracts with the Industries for
the Blind without first performing a Rule of Two analysis and
entered judgment in favor of PDS Consultants.

“In a given case, whether Tucker Act jurisdiction exists is
a question of law that we review without deference to the
decision of the trial court.” Metz v. United States, 466 F.3d
991, 995 (Fed. Cir. 2006) (citation omitted). PDS Consultants,
as the plaintiff below, “bears the burden of proving that” the
Claims Court “possessed jurisdiction over his complaint.”
Sanders v. United States, 252 F.3d 1329, 1333 (Fed. Cir. 2001)
(citing Rocovich v. United States, 933 F.2d 991, 993 (Fed. Cir.
1991) ).
*1355 We review the Claims Court’s rulings on motions
for judgment on the administrative record de novo and
review its factual findings based on the administrative record
for clear error. PAI Corp. v. United States, 614 F.3d 1347,
1351 (Fed. Cir. 2010) (citations omitted). In a bid protest
case, we apply the standard of review set forth in the
Administrative Procedure Act to determine whether the
agency’s actions were “arbitrary, capricious, an abuse of
discretion, or otherwise not in accordance with law.” Bannum,
Inc. v. United States, 404 F.3d 1346, 1351 (Fed. Cir. 2005)
(quoting 5 U.S.C. § 706(2)(A) ).
We generally review an agency’s statutory interpretations
pursuant to Chevron U.S.A. Inc. v. Natural Resources Defense
Council, Inc., 467 U.S. 837, 104 S.Ct. 2778, 81 L.Ed.2d
694 (1984); Auer v. Robbins, 519 U.S. 452, 117 S.Ct. 905,
137 L.Ed.2d 79 (1997); and United States v. Mead Corp.,
533 U.S. 218, 229–30, 121 S.Ct. 2164, 150 L.Ed.2d 292
(2001). Chevron requires that a court reviewing an agency’s
construction of a statute that it administers first discern
“whether Congress has directly spoken to the precise question
at issue.” 467 U.S. at 842, 104 S.Ct. 2778. If the answer is
yes, the inquiry ends, and the reviewing court must give effect
to Congress’s unambiguous intent. Id. at 842–43, 104 S.Ct.
2778. If the answer is no, the court must defer to the agency’s
construction of the statute as long as that construction is a
reasonable one. Id. at 843, 104 S.Ct. 2778. Notably, “we owe
an agency’s interpretation of the law no deference unless,
after ‘employing traditional tools of statutory construction,’
we find ourselves unable to discern Congress’s meaning.”

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

7

PDS Consultants, Inc. v. United States, 907 F.3d 1345 (2018)

SAS Inst. Inc. v. Iancu, ––– U.S. ––––, 138 S.Ct. 1348, 1358,
200 L.Ed.2d 695 (2018) (quoting Chevron, 467 U.S. at 843
n.9, 104 S.Ct. 2778).
Here, despite the existence of various regulations and internal
documents purporting to implement the VBA, neither party
argues that the VBA is ambiguous or that the VAAR
regulations or the 2010 and 2016 memoranda are entitled to
deference under Chevron. Rather, both parties argue that the
statutes before us—when properly construed and reconciled
—unambiguously compel the result they seek.
Before turning to the statutory interpretations the parties urge,
we must first consider the question of the Claims Court’s
jurisdiction over PDS Consultants’ complaint.

B. The Claims Court Properly Exercised
Subject-Matter Jurisdiction over the Action
The Industries for the Blind argues that the Claims Court
lacked jurisdiction to rule on PDS Consultants’ claims for
two reasons. 6 First, the Industries for the Blind contends
that PDS Consultants challenges “the validity of the VAAR
and the AbilityOne Program as a whole,” and that such a
challenge to the validity of a regulation or statute “rests
exclusively with the federal district courts under the authority
of the [Administrative Procedure Act].” Indus. for the Blind
Br. 22, 24. Second, the Industries for the Blind argues
that purchases from the List “are not ‘procurements’ for
purposes of Tucker Act jurisdiction.” Id. at 28. Instead, the
only List procurements arising under Tucker Act jurisdiction,
according to the Industries for the Blind, are AbilityOne’s
decisions to add or remove products and services from the
List. See id. at 28–29.
6

The Government does not appeal this issue. Rather,
the Government has taken the opposing view in related
litigation, contending that such actions are essentially bid
protests that fall under the Claims Court’s jurisdiction.
See Nat’l Indus. for the Blind v. Dep’t of Veterans Affairs,
No. 1:17-cv-00992-KBJ (D.D.C. Aug. 22, 2017), ECF
No. 30 at 11–14.

*1356 The Claims Court can exercise jurisdiction under the
Tucker Act over “an action by an interested party objecting
to a solicitation by a Federal agency for bids or proposals
for a proposed contract or to a proposed award ... or any
alleged violation of statute or regulation in connection with
a procurement or a proposed procurement.” 28 U.S.C. §

1491(b)(1). The Tucker Act further provides that the Claims
Court “shall have jurisdiction to entertain such an action
without regard to whether suit is instituted before or after the
contract is awarded.” Id.
PDS Consultants’ claims fall squarely within Tucker Act
jurisdiction. An “interested party” under the Tucker Act is “an
actual or prospective bidder or offeror whose direct economic
interest would be affected by the award of the contract or
by failure to award the contract.” 31 U.S.C. § 3551(2)(A);
see Am. Fed’n of Gov’t Emps., AFL-CIO v. United States,
258 F.3d 1294, 1302 (Fed. Cir. 2001) (“We ... construe the
term ‘interested party’ in § 1491(b)(1) in accordance with
the [Competition in Contracting Act] ....”). PDS Consultants
meets this requirement, as it is an actual or prospective
service-disabled veteran-owned small business bidder on
the VISNs 2 and 7 eyewear procurements whose direct
economic interest would be affected by the contract award
(or failure thereof). And, rather than challenge the validity
of the VAAR and AbilityOne programs as the Industries
for the Blind contends, PDS Consultants alleged a statutory
violation—namely, that the VA acted in violation of the
VBA by awarding contracts without first conducting the
Rule of Two analysis. Industries for the Blind does not—
nor could it—dispute that the VBA is a statute that relates
to all VA procurements. Far from being “tangentially related
to a government procurement,” Cleveland Assets, LLC v.
United States, 883 F.3d 1378, 1381 (Fed. Cir. 2018) (finding
appropriations provision tangential to, and thus, not “related
to” a procurement), the VBA dictates the methodology the VA
must employ for its procurements. As an “alleged violation
of statute or regulation in connection with a procurement or a
proposed procurement,” PDS Consultants’ action arises under
the Claims Court’s jurisdiction.
Regarding whether the Industries for the Blind’s contracts
are procurements, we have found “procurements” under
the Tucker Act to encompass “all stages of the process of
acquiring property or services, beginning with the process
for determining a need for property or services and ending
with contract completion and closeout.” Distributed Sols.,
Inc. v. United States, 539 F.3d 1340, 1345–46 (Fed. Cir.
2008) (emphasis omitted). “To establish jurisdiction pursuant
to this definition, [PDS Consultants] must demonstrate that
the government at least initiated a procurement, or initiated
‘the process for determining a need’ for” eyewear for VISNs
2 and 7. Id. at 1346. PDS Consultants has satisfied this
requirement. The Industries for the Blind’s agreements in
VISNs 2 and 7, stemming from VA procurements, are legally

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

8

PDS Consultants, Inc. v. United States, 907 F.3d 1345 (2018)

binding contracts requiring the Industries for the Blind to
furnish eyewear and related services and the VA to pay for
it. Such contracts are encompassed within the Tucker Act’s
broad coverage of “procurements.”
Accordingly, the Claims Court did not err in finding that it
had jurisdiction over PDS Consultants’ claims.

C. The VA is Required to Use the Rule of Two
Even When Goods and Services Are on the List
Now that we have determined that the Claims Court properly
exercised jurisdiction over PDS Consultants’ complaint, we
next examine whether the Claims Court *1357 erred in its
substantive legal analysis. We conclude that it did not.
“As in any case of statutory construction, our analysis begins
with the language of the statute.” Hughes Aircraft Co. v.
Jacobson, 525 U.S. 432, 438, 119 S.Ct. 755, 142 L.Ed.2d 881
(1999) (internal quotation marks omitted). “The first step ‘is
to determine whether the language at issue has a plain and
unambiguous meaning with regard to the particular dispute in
the case.’ ” Barnhart v. Sigmon Coal Co., 534 U.S. 438, 450,
122 S.Ct. 941, 151 L.Ed.2d 908 (2002) (quoting Robinson v.
Shell Oil Co., 519 U.S. 337, 340, 117 S.Ct. 843, 136 L.Ed.2d
808 (1997) ). We “must read the words ‘in their context and
with a view to their place in the overall statutory scheme.’ ”
King v. Burwell, ––– U.S. ––––, 135 S.Ct. 2480, 2489, 192
L.Ed.2d 483 (2015) (quoting FDA v. Brown & Williamson
Tobacco Corp., 529 U.S. 120, 133, 120 S.Ct. 1291, 146
L.Ed.2d 121 (2000) ). This is because statutory “[a]mbiguity
is a creature not of definitional possibilities but of statutory
context.” Brown v. Gardner, 513 U.S. 115, 118, 115 S.Ct. 552,
130 L.Ed.2d 462 (1994).
The two statutory provisions at the heart of this case are
the VBA, 38 U.S.C. § 8127(d), and the JWOD, 41 U.S.C. §
8504(a). Section 8127(d) of the VBA provides that, subject
to two exceptions not relevant here, VA contracting officers
“shall award contracts on the basis of competition restricted to
small business concerns owned and controlled by veterans,”
provided they have a “reasonable expectation” (1) “that two
or more small business concerns owned and controlled by
veterans will submit offers” and (2) “that the award can be
made at a fair and reasonable price that offers best value to the
United States.” 38 U.S.C. § 8127(d). The Supreme Court in
Kingdomware held that, because it contains the word “shall,”
§ 8127(d) “unambiguously requires the [VA] to use the Rule

of Two before contracting under the competitive procedures.”
136 S.Ct. at 1976.
Section 8504(a) of the JWOD also contains the word “shall.”
It provides that “[a]n entity of the Federal Government
intending to procure a product or service on the [List] ...
shall procure the product or service from a qualified nonprofit
agency for the blind or a qualified nonprofit agency for
other severely disabled” in accordance with regulations
promulgated by and prices set by AbilityOne, “if the product
or service is available within the period required by the
entity.” 41 U.S.C. § 8504(a) (emphasis added). Because §
8504(a) includes the word “shall” and because it specifies the
terms by and conditions under which federal agencies, which
would include the VA, shall procure products or services that
are on the List, § 8504(a) on its face seems to also obligate the
VA to procure products and services on the List from qualified
nonprofit agencies for the blind or other severely disabled
individuals where such products and services are “available
within the period required by the entity.” See Kingdomware,
136 S.Ct. at 1977 (“Unlike the word ‘may,’ which implies
discretion, the word ‘shall’ usually connotes a requirement.”).
As both statutes contain mandatory language, we must
determine whether and to what extent they conflict with one
another. If it is possible to give effect to both statutes, we
must do so. Watt v. Alaska, 451 U.S. 259, 267, 101 S.Ct.
1673, 68 L.Ed.2d 80 (1981) (court must read statutes to give
effect to each if it can do so while preserving their sense and
purpose). If any interpretation of the statutory provisions at
issue allows both statutes to remain operative, the court must
adopt that interpretation absent a clear congressional directive
to the contrary. *1358 Miccosukee Tribe of Indians of Fla.
v. United States Army Corps of Eng’rs, 619 F.3d 1289, 1299
(11th Cir. 2010) (interpretation that allows both statutes to
stand must be employed).
The government argues that any statutory conflict can be
avoided by interpreting § 8127(d) “as applying only to nonmandatory, competitive awards.” Gov’t Br. 19. It argues
that the mandatory procurements under the JWOD are not
governed by § 8127(d), despite the absence of an express
exception to that effect. We do not read § 8127(d) so narrowly.
Rather than limit its application to competitive contracts,
§ 8127(d) requires the VA to “award contracts on the
basis of competition.” That is, by its express language,
the statute applies to all contracts—not only competitive
contracts. The statute requires that, when the Rule of Two is

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

9

PDS Consultants, Inc. v. United States, 907 F.3d 1345 (2018)

triggered—i.e., when “the contracting officer has a reasonable
expectation that two or more small business concerns owned
and controlled by veterans will submit offers and that the
award can be made at a fair and reasonable price that
offers best value to the United States”—the VA must apply
competitive mechanisms to determine to whom the contract
should be awarded. See Kingdomware, 136 S.Ct. at 1976
(finding that the text of § 8127 “requires the [VA] to apply
the Rule of Two to all contracting determinations.” (emphasis
added) ). And, while § 8127(d) applies only when the Rule
of Two is satisfied, § 8127(i) is broader and requires the
VA to prioritize veterans (with and without service-connected
disabilities) under subsections (b) and (c), even when the Rule
of Two is not satisfied.
So, we must turn to the question of whether an alternative
means for reconciling these provisions can be found in
standard principles of statutory interpretation. We find that it
can.
“A basic tenet of statutory construction is that a specific
statute takes precedence over a more general one.” Arzio
v. Shinseki, 602 F.3d 1343, 1347 (Fed. Cir. 2010) (citing
Morales v. Trans World Airlines, Inc., 504 U.S. 374,
384, 112 S.Ct. 2031, 119 L.Ed.2d 157 (1992) (“[I]t is
a commonplace of statutory construction that the specific
governs the general.”) ); RadLAX Gateway Hotel, LLC v.
Amalgamated Bank, 566 U.S. 639, 645, 132 S.Ct. 2065,
182 L.Ed.2d 967 (2012) (“The general/specific canon is
perhaps most frequently applied to statutes in which a
general permission or prohibition is contradicted by a specific
prohibition or permission. To eliminate the contradiction, the
specific provision is construed as an exception to the general
one.”). While the JWOD applies to all agencies of the federal
government, the VBA applies only to VA procurements and
only when the Rule of Two is satisfied. The express, specific
directives in § 8127(d), thus, override the more general
contracting requirements of the JWOD.
A comparison of the provisions and stated goals of the
VBA with those of its predecessor, the Veterans Benefit Act
of 2003, reinforces this conclusion. The 2003 Act, unlike
the VBA, authorized but did not require all contracting
officers within the federal government to apply the Rule
of Two when contracting with service-disabled veteranowned small businesses (as opposed to all veteran-owned
small businesses) under title 15 of the United States Code.
Specifically, it amended 15 U.S.C. § 657(f) to add the
following provision:

a contracting officer may award
contracts on the basis of competition
restricted to small business concerns
owned and controlled by servicedisabled veterans if the contracting
officer has a reasonable expectation
that not less than 2 small business
concerns owned and controlled by
service-disabled veterans will submit
offers and *1359 that the award can
be made at a fair market price.

Pub. L. No. 108-183 § 308, 117 Stat. 2651, 2662 (2003)
(emphasis added). Importantly, the 2003 Act, in addition
to applying to all agency procurement decisions involving
service-disabled veteran-owned small businesses, conferred
discretion on contracting officers to apply the Rule of
Two through the use of the permissive word “may.” See
United States v. Rodgers, 461 U.S. 677, 706, 103 S.Ct.
2132, 76 L.Ed.2d 236 (1983) (explaining that “[t]he word
‘may,’ when used in a statute, usually implies some degree
of discretion”). The 2006 VBA, however, includes the
mandatory requirement that VA contracting officers “shall
award contracts on the basis of competition restricted to small
business concerns owned and controlled by veterans” if the
Rule of Two is satisfied, subject to two statutorily defined,
noncompetitive exceptions. 38 U.S.C. § 8127(d) (emphasis
added).
The VBA, moreover, was expressly enacted to “increase
contracting opportunities for small business concerns owned
and controlled by veterans and ... by veterans with serviceconnected disabilities.” 38 U.S.C. § 8127(a)(1). Consistent
with the VA’s duty to support and champion the veteran
community, the VBA created the Veterans First Contracting
Program (“Veterans First”), which requires the VA to give
“contracting priority” to qualified service-disabled veteranowned small businesses and veteran-owned small businesses.
See 38 U.S.C. §§ 8127–8128. And it specifies that the
Secretary, “[i]n procuring goods and services pursuant to a
contracting preference under this title or any other provision
of law ... shall give priority to a small business concern owned
and controlled by veterans, if such business concern also
meets the requirements of that contracting preference.” Id. §
8128(a) (emphasis added).

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

10

PDS Consultants, Inc. v. United States, 907 F.3d 1345 (2018)

The VBA also lacks any exception for procurements that
would otherwise be governed by the JWOD. We assume
that Congress was aware that it wrote an exception into the
agency-wide Veterans Benefits Act in 2003 when it left that
very same exception out of the VBA only three years later.
Additionally, “when two statutes conflict, the later-enacted
statute controls.” Miccosukee Tribe, 619 F.3d at 1299; see
also United States v. Estate of Romani, 523 U.S. 517, 532,
118 S.Ct. 1478, 140 L.Ed.2d 710 (1998) (finding laterenacted, more specific statute controlling). As the VBA was
enacted over 30 years after the JWOD was last amended, 7
we can infer that Congress intended the VBA to control
in its narrower arena, and the JWOD to dictate broader
procurements outside of the VA. Because we can give
meaning to both statutes under this interpretation, we avoid
any repeal of the JWOD by implication. See Morton v.
Mancari, 417 U.S. 535, 549, 94 S.Ct. 2474, 41 L.Ed.2d 290
(1974) (“[R]epeals by implication are not favored.”). That is,
agencies outside of the VA must still comply with the JWOD,
as does the VA when the Rule of Two is not implicated. We,
therefore, conclude that the requirements of the more specific,
later-enacted VBA take precedence over those of the JWOD
when the two statutes are in apparent conflict.
7

Title 41 was reorganized in 2011, but that recodification
did not substantively amend the relevant language here.

Our conclusion finds support in the Supreme Court’s decision
in Kingdomware. There, the Court considered whether the VA
must use the Rule of Two every time it awards contracts, or
whether it instead *1360 must use the rule only to the extent
necessary to meet annual minimum goals for contracting
with veteran-owned small businesses. Kingdomware, 136
S.Ct. at 1973. The Court stated that the VBA’s requirement
to set aside contracts for veteran-owned small businesses
“is mandatory, not discretionary,” and held that the text of
§ 8127(d) “unambiguously” requires that the VA “apply
the Rule of Two to all contracting determinations and
to award contracts to veteran-owned small businesses.”
Id. at 1976 (emphasis added). It reasoned that § 8127(d)
expressly provides that the VA “shall award contracts”
to veteran-owned small businesses and service-disabled
veteran-owned small businesses except in two statutorily
defined circumstances, and that the provision “requires” the
VA to “use the Rule of Two before awarding a contract to
another supplier.” Id. at 1977 (emphasis added). The Court
held that these mandatory requirements in the VBA override
the purchase requirements set forth in the Federal Supply

Schedules included in FAR Part 8. Id. at 1978–79. While
the precise question we consider today was not presented in
Kingdomware, we may not ignore the Court’s finding that the
VBA “is mandatory, not discretionary” and that § 8127(d)
“requires the Department to apply the Rule of Two to all
contracting determinations and to award contracts to veteranowned small businesses.” 136 S.Ct. at 1975–76 (emphasis
added). Competitive or not, placing an item on the List, or
choosing an item therefrom under the JWOD, is a form of
awarding a contract. And under § 8127(d) and Kingdomware,
the VA, in such a situation, is required to first conduct a Rule
of Two analysis.
Our conclusion is not, as the government and the Industries
for the Blind contend, inconsistent with the FAR. They argue
that, even if § 8127(d) applies to all VA contracts, it is
superseded by Part 8 of the FAR, which “expressly recognizes
the AbilityOne Program as ... a mandatory Government
source requirement.” Indus. for the Blind Br. 38; see also
Gov’t. Br. 30. According to the Appellants, the FAR requires
use of mandatory sources like AbilityOne prior to competitive
sources. We disagree. Even if a regulation could ever overrule
a clear statutory mandate, the FAR does not purport to
do so with respect to § 8127(d). FAR Part 8 begins by
stating, “[e]xcept ... as otherwise provided by law,” therefore
expressly acknowledging that the use of “mandatory ...
sources,” like AbilityOne, can be superseded. 48 C.F.R. §
8.002.
Indeed, under § 8128(a), the Secretary of Veterans Affairs,
when “procuring goods and services pursuant to a contracting
preference under [title 38] or any other provision of law
... shall give priority to a small business concern owned
and controlled by veterans, if such business concern also
meets the requirements of that contracting preference.” 38
U.S.C. § 8128(a) (emphases added). The phrase “or any other
provision of law” by its terms encompasses the JWOD.
Thus, where a product or service is on the List and ordinarily
would result in the contract being awarded to a nonprofit
qualified under the JWOD, the VBA unambiguously demands
that priority be given to veteran-owned small businesses.
While we are mindful of Appellants’ policy arguments, we
must give effect to the policy choices made by Congress.
We find that by passing the VBA, Congress increased
employment opportunities for veteran-owned businesses in
a narrow category of circumstances, while leaving intact
significant mechanisms to protect such opportunities for the
disabled.

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

11

PDS Consultants, Inc. v. United States, 907 F.3d 1345 (2018)

COSTS

III. CONCLUSION
Considering the plain language of the more specific, laterenacted VBA, as well *1361 as the legislative history and
Congress’s intention in enacting it, we affirm.

No costs.

AFFIRMED

907 F.3d 1345

End of Document

All Citations

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

© 2019 Thomson Reuters. No claim to original U.S. Government Works.

12

Exhibit B

Case: 17-2379

Document: 160

Page: 1

Filed: 05/10/2019

NOTE: This order is nonprecedential.

United States Court of Appeals
for the Federal Circuit
______________________

PDS CONSULTANTS, INC.,
Plaintiff-Appellee
v.
UNITED STATES, WINSTON-SALEM INDUSTRIES
FOR THE BLIND,
Defendants-Appellants
______________________
2017-2379, 2017-2512
______________________
Appeals from the United States Court of Federal
Claims in No. 1:16-cv-01063-NBF, Senior Judge Nancy B.
Firestone.
______________________
ON PETITION FOR PANEL REHEARING AND
REHEARING EN BANC
______________________
Before PROST, Chief Judge, NEWMAN, LOURIE, DYK,
MOORE, O’MALLEY, REYNA, WALLACH, TARANTO, CHEN,
HUGHES, and STOLL, Circuit Judges.
PER CURIAM.
ORDER

Case: 17-2379

Document: 160

Page: 2

Filed: 05/10/2019

PDS CONSULTANTS, INC. v. UNITED STATES

2

Appellant Winston-Salem Industries For The Blind
filed a combined petition for panel rehearing and rehearing
en banc. A response to the petition was invited by the court
and filed by Appellee PDS Consultants, Inc. The petition
was referred to the panel that heard the appeals, and
thereafter the petition for rehearing en banc was referred
to the circuit judges who are in regular active service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on May 17, 2019.
FOR THE COURT
May 10, 2019
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

CERTIFICATE OF SERVICE
I certify that, on this 19th day of July, 2019, I caused a copy of the foregoing
Application for Extension of Time to be served by first-class mail, postage pre-paid,
and by email on the following:
Davis S. Gallacher
Sheppard Mullin Richter & Hampton LLP
2099 Pennsylvania Ave, NW, Suite 100
Washington, DC 20006
(202) 747-1921
dgallacher@sheppardmullin.com
Carter G. Phillips
Carter G. Phillips
SIDLEY AUSTIN LLP
1501 K Street, N.W.
(202) 736-8000
cphillips@sidley.com

